June 2005
Report No. 05-022


Central Data Repository Project
Management




             AUDIT REPORT
                                                                                         Report No. 05-022
                                                                                                June 2005



                                        Central Data Repository Project Management
                                        Results of Audit

                                        The CDR project management has generally adopted project
Background and Purpose of               management practices recommended by industry standards.
Audit                                   However, faced with the challenges of fielding new technology,
                                        accommodating highly diverse users, and adopting new business
Financial institutions regulated by     practices, CDR implementation has been delayed for at least 1
the Call Report agencies are required   year. The lack of progress raises concerns as to whether system
to submit quarterly Consolidated
                                        functionality as originally envisioned can be attained. The CDR
Reports of Condition and Income,
commonly referred to as Call            project management team has reported the delays encountered to
Reports. To improve the regulatory      the Capital Investment Review Committee and has made changes
call reporting process, the FDIC, on    in key project management positions, increased oversight, and
behalf of the Call Report agencies,     included a penalty for non-performance in the contract with Unisys
entered into a $39 million contract     to address project progress and performance. Unisys also
with Unisys Corporation for the         identified a need to improve communication between the FDIC
central data repository (CDR)           project teams and the contractor in resolving disagreements on
system. The contract consists of a      requirements and to provide additional resources for the project.
phased approach for implementing
the new call reporting process.         However, the CDR project team has not updated the risk
Among other benefits, the CDR
                                        management and contingency plans to address the risks posed by:
system (1) would provide data to the
industry more quickly in a manner
that allows more flexibility for data   •   pending change requests related to significant functionalities;
analysis and (2) would increase         •   requirements to be met after, rather than upon, system
efficiencies, resulting in a cost              delivery;
savings of $27 million over the         •   secondary options for system functionalities that, if not
10-year life of the contract. The           exercised or developed, substantially decrease the expected
contract was modified in January            benefits, and
2005 to address industry feedback
                                        •   continued delays in meeting milestones.
and allow more time for system
testing and enrollment. The
modification revised the system         Recommendations and Management Response
deployment date from October 2004
to September 2005.                      The report recommends that the FDIC:

The CDR Steering Committee was          •   Determine the cost, schedule, and benefits impact of the
established to oversee the system           change requests, delayed requirements, and secondary options
development effort and includes             before the system delivery date.
representatives from the Federal
                                        •   Revise the risk management plan to address post-delivery
Reserve Board, the Office of the
Comptroller of the Currency, and the
                                            requirements.
FDIC.                                   •   Update the contingency plan to reflect the revised project
                                            schedule and available options if the September 2005 delivery
The audit objective was to determine        date is not met.
whether CDR project management
was adequate.                           FDIC management agreed with the recommendations and has
                                        taken or planned actions to address them.

 To view the full report, go to
 www.fdicig.gov/2005reports.asp
                              TABLE OF CONTENTS

BACKGROUND                                                         2

RESULTS OF AUDIT                                                   4

RISK MANAGEMENT AND CONTINGENCY PLANNING                           6
  Risk Management Guidance                                         6
  Impact of System Status on Cost, Schedule, and Benefits          6
  Change Requests                                                  7
  Delayed Functionalities                                          9
  Secondary Options for System Functionalities                     9
  Schedule Slippages                                              10

RECOMMENDATIONS                                                   10

CORPORATION COMMENTS AND OIG EVALUATION                           11

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY                     13

APPENDIX II: CDR CHANGE CONTROL PROCESS                           16

APPENDIX III: DELAYED FUNCTIONALITIES AND SECONDARY OPTIONS       17

APPENDIX IV: SEVERE DEFECTS IDENTIFIED IN MARCH 22, 2005 UNISYS   18
TROUBLE REPORT

APPENDIX V: DETERMINATION OF RISK                                 19

APPENDIX VI: CORPORATION COMMENTS                                 20

APPENDIX VII: MANAGEMENT RESPONSE TO RECOMMENDATIONS              23

TABLES

Table 1: CDR Project Schedule of Key Tasks                        4
Table 2: Risk Areas That Could Affect the CDR Project             5
Table 3: Change Requests With a High Impact on the CDR Project    7
Federal Deposit Insurance Corporation                                                                  Office of Audits
801 17th Street NW, Washington, DC 20434                                                  Office of Inspector General



DATE:                                  June 15, 2005

MEMORANDUM TO:                         Steven O. App
                                       Deputy to the Chairman and Chief Financial Officer

                                       Michael E. Bartell
                                       Chief Information Officer and
                                       Director, Division of Information Technology

                                       Arthur J. Murton, Director
                                       Division of Insurance and Research



FROM:                                  Russell A. Rau [Electronically produced version; original signed by Russell A. Rau]
                                       Assistant Inspector General for Audits

SUBJECT:                               Central Data Repository Project Management
                                       (Report No. 05-022)

This report presents the results of the Federal Deposit Insurance Corporation (FDIC) Office of
Inspector General’s (OIG) audit of the Federal Financial Institutions Examination Council’s
(FFIEC) project management of the Central Data Repository (CDR) system development. The
objective of the audit was to determine whether CDR project management was adequate.
Appendix I describes in detail our objective, scope, and methodology.

The FDIC, acting in its corporate capacity on behalf of the FFIEC Call Report agencies,1 entered
into a contract with Unisys Corporation for the design, development, testing, implementation,
hosting, and maintenance of the CDR system to improve the regulatory call reporting process.
The contract consists of a phased approach for implementing a new call reporting process and
Uniform Bank Performance Reporting (UBPR) and banking information distribution processes.
The FDIC planned to fully implement the call reporting process for financial institution use in
submitting the quarterly Call Reports due by September 30, 2004. The contract was modified on
January 21, 2005 to address industry feedback and allow more time for system testing and
enrollment. The modification revised the system deployment date from October 2004 to
September 2005.




1
 The Call Report agencies include the FDIC, the Office of the Comptroller of the Currency (OCC), and the Federal
Reserve Board (FRB). Financial institutions regulated by the Call Report agencies are required to submit quarterly
Consolidated Reports of Condition and Income, commonly referred to as Call Reports.
BACKGROUND

The information in the new CDR system would be relied on as the official source of Call Report
information by the federal and state bank regulatory agencies, reporting banks and their service
providers, and external users of Call Report data. The FDIC’s Division of Insurance and
Research (DIR), acting as the CDR program sponsor on behalf of the FFIEC, asked the FDIC’s
Board of Directors to approve up to $44 million (including $4.9 million for contingencies) in
funding for the CDR system. The funding request was based on a cost-benefit analysis that
anticipated the following benefits:

    •   The new process would introduce a new protocol for reporting financial information –
        Extensible Business Reporting Language (XBRL) – offering opportunities for reduced
        reporting costs and more efficient operations for both the regulatory agencies and the
        banking industry.
    •   The new process would eliminate 10 business days from the current processing
        timeframe and would set the stage for “real time” data.
    •   The new system would be both scalable and extensible to allow for new analysis and
        products.
    •   Data would be provided to the industry more quickly in formats and with tools that allow
        users more flexibility for data analysis.
    •   The new process would increase efficiencies, resulting in a cost savings of $27 million
        over the 10-year life of the contract.

The Call Report agencies entered into a memorandum of understanding to share in the costs of
developing and maintaining the system. The FDIC is funding 80 percent of the project. The
FDIC’s Board of Directors approved the funding request, and a contract was awarded to the
Unisys Corporation on May 23, 2003. The contract included the following fixed-price
deliverables:

        Development and implementation of CDR primary requirements           $11,473,244
        Primary requirements hosting and maintenance (years 2-7)              16,630,661
        Secondary requirements for system functionalities                      2,080,216
        Secondary requirements for hosting and maintenance (years 2-7)            74,897
        3 option years for data processing services and maintenance            8,761,580
         Total                                                               $39,020,598

On October 24, 2003, the FDIC issued change order no. 1 for the development and
implementation of a meta-data management tool for the CDR system. The tool processes the
data from the financial institutions for use in the CDR using a set of computer instructions that
include dictionaries, reporting forms, taxonomies, business rules, reporting instructions, data
validation criteria, system specifications, and data access rules. These instructions are referred to
as meta-data. The change order increased the contract cost by $840,000.

Project Management and Oversight

The FDIC has adopted the industry standards included in the Project Management Institute’s
A Guide to the Project Management Body of Knowledge (PMBOK® Guide) and the International

                                                  2
Business Machines’ (IBM) Rational Unified Process (RUP®) as the methodology for system
development. Both the PMBOK® Guide and RUP® emphasize the importance of project
management throughout a system’s development life cycle. The PMBOK® Guide describes a set
of generally accepted practices for managing all types of projects, including software
development projects. The guide defines project management as the application of knowledge,
skills, tools, and techniques to project activities to meet project requirements. RUP® is a
software engineering process that describes who does what, when, and how for a software
development and deployment project. RUP® organizes such projects with an iterative approach
that addresses risk early and continuously.

The FFIEC Task Force on Reports was established to develop interagency uniformity in the
reporting of periodic information that is needed for effective supervision and other public policy
purposes. To this end, the Task Force began to develop a new Internet-based business model for
processing the quarterly Call Reports. The Call Report agencies have taken a collaborative
approach in overseeing the development, implementation, and ongoing operation of the CDR
system and other supporting activities that promote the modernization of Call Report data
management. Each agency provides specialized expertise and resources to facilitate the
implementation of the new Call Report business process. The CDR Steering Committee,
composed of senior executives from each Call Report agency, is responsible for monitoring CDR
system progress; providing feedback on the performance of the CDR project and oversight
managers to their respective supervisors; resolving business, operational, and policy issues
related to the development and operation of the system; and reviewing and approving the CDR
business continuity plan. The FDIC’s Deputy Director, DIR, and the Deputy Director, Division
of Information Technology (DIT), are members of the Steering Committee.

The FFIEC project management team consists of representatives from each of the Call Report
agencies. The FFIEC appointed the project manager and contract oversight manager who
provide day-to-day project management and have primary interactions with the CDR system
contractor. The project manager reports to the CDR Steering Committee. The oversight
manager is responsible for contract oversight, including the review and approval of contract
deliverables. The project manager and contract oversight manager are DIR and DIT officials,
respectively.

To address changes in the CDR functional requirements, the FFIEC established a Change
Control Board (CCB) to implement the CDR system change control process. The CCB members
include the contract oversight manager (the CCB Chairman), the CDR project manager, the CDR
Steering Committee Chairman (from the FRB), a representative from the OCC, and the Unisys
project manager. All project change requests must be approved by the CCB Chairman and the
Unisys program manager. However, if a change request has an impact on the cost or schedule of
the CDR project, the CCB, CDR Steering Committee, FFIEC Task Force on Reports, and
contracting officer must approve the change request. The change control process is depicted in
Appendix II.

The CDR project is also monitored by the FDIC’s Capital Investment Review Committee
(CIRC), which is responsible for overseeing the capital investment portfolio of the FDIC. The
CIRC reviews and approves the Corporation’s capital investment projects and monitors the cost,


                                                3
schedule, and performance of the projects. The CIRC makes final funding recommendations to
the FDIC Board of Directors and provides the Board with quarterly assessments of the capital
investment portfolio. Finally, the CIRC is responsible for approving all disbursements from a
project’s contingency reserve.

Unisys project management responsibilities consist of program and project oversight,
subcontractor management, financial oversight, and technical oversight, including subject matter
experts. Unisys developed its own risk management plan and reports weekly to the FFIEC
contract oversight manager and project manager. Unisys also maintains the project plan that
tracks project milestones and deliverables.

Project Status

The CDR system was originally planned to be deployed by September 2004. However, on
January 21, 2005, the FDIC and UNISYS executed a contract modification reflecting a new
planned deployment date of September 2005. In a January 28, 2005 FDIC press release, the Call
Report agencies announced a new implementation plan for the CDR. According to the press
release, banks would not be required to submit Call Report data to the CDR until October 2005.
The release further stated that rollout of the CDR was postponed to address industry feedback
and allow more time for system testing and enrollment.

The delays in development and testing have continued to occur. Some tests, such as use case
functionality testing, had been initially completed, but the defects identified during testing have
not been corrected. In addition, other critical tests such as the full system testing (end-to-end
testing) and security certification and accreditation have not yet been performed. Completing
system development and testing within the revised milestone dates is critical to the ability to
deliver the CDR project by September 30, 2005. Table 1 shows the original and revised
milestones of three key tasks that need to be completed.

Table 1: CDR Project Schedule of Key Tasks
                 Key Milestones                  Original Planned       Revised         Delay
                                                 Completion Date        Planned
                                                                      Completion
                                                                          Date
 CDR End-to-End Test Report and Acceptance           08/06/04        07/01/05        11 months
 Rollout Pilot Program                               09/22/04        09/09/05        12 months
 System Launch                                       10/01/04        10/01/05        12 months


RESULTS OF AUDIT

The CDR project management team has established adequate project management controls in
accordance with practices recommended by the PMBOK® Guide and RUP.® However, the CDR
project has been faced with both management and technical challenges associated with fielding
new technology across multiple platforms, highly diverse users, and adopting new business
practices associated with the call reporting process. The project team has been unable to
overcome the challenges, and implementation of the CDR system has been delayed for at least

                                                 4
1 year. This lack of progress raises concerns as to whether system functionality as originally
envisioned can be attained.

The CDR project management team has reported the delays encountered to the CIRC and has
taken several actions to address project progress and performance. For example, the team has
made changes in key project management positions, increased oversight and reporting
requirements, and modified the contract with Unisys to include a penalty for non-performance.
In addition, Unisys has performed an internal review of the project to evaluate progress and
performance. The internal review identified a need for improved communication between the
project team and Unisys to resolve disagreements about system requirements and additional
Unisys resources for the project.

However, the CDR project team has not updated the risk management and contingency plans to
address the risks posed by:

      •    pending change requests related to significant system functions;
      •    system requirements that will be met after, rather than upon, system delivery;
      •    secondary options for system functionalities that, if not exercised, substantially decrease
           the system’s expected benefits and effectiveness; and
      •    continued delays in meeting milestones.

Table 2 identifies the potential impact of the risk areas on the success of the CDR project. We
adapted the CDR project team’s methodology to determine the risk levels. See Appendix V for a
more detailed description of this methodology.

Table 2: Risk Areas That Could Affect the CDR Project
     Risk Area                Description                                             Impacta       Risk Level
                                                                                      C S B
     Change Requests              •   Update the project management plan to reflect   X    X    X   High
                                      current contract requirements.
                                  •   Enhance the meta-data management capability     X         X
                                      to import external edits.
                                  •   Provide ad hoc query capability.                X         X
                                  •   Provide the FDIC access to business rules.           X    X
                                  •   Implement meta-data versioning.                 X         X
                                  •   Correct data edit design.                       X         X
     Delayed System               •   Current design functionalities delayed until              X   Moderate
     Functionalities                  after CDR system delivery date.
     Secondary Options Not        •   Online Analytical Processing (OLAP) tool,b                X   High
     Exercised                        UBPR, Call Report Facsimiles, and
                                      E-Commerce Facility.
     Schedule Slippages           •   Schedule slippages in the September 30, 2005    X    X    X   High
                                      delivery date schedule.
 a
     C-Cost, S-Schedule, B-Benefits.
 b
     The OLAP tool option was exercised at the time the contract was awarded, but development work has not been
     completed. These options are discussed in detail on page 9 of this report.




                                                         5
Without adequate risk management and contingency planning, the CDR project costs could
exceed the current budget, additional system development delays may occur, and anticipated
benefits may not be realized.

RISK MANAGEMENT AND CONTINGENCY PLANNING

The pending change requests, delayed system functionalities, unexercised secondary options, and
continued schedule slippages could significantly impact the cost, schedule, and benefits of the
CDR project. The CDR project management team has not adequately addressed these risks in its
risk management plan and contingency plan. As a result, the CDR project team may not be able
to properly identify and mitigate the risks should they materialize.

Risk Management Guidance

The PMBOK® Guide encourages the use of risk management techniques to identify, analyze, and
plan for new risks, track identified risks, continually reassess existing risks, monitor residual
risks, and review the execution of risk responses while evaluating the effectiveness of those
responses. The objectives of project risk management are to increase the probability and impact
of positive events and decrease the probability and impact of adverse events on the project. The
PMBOK® Guide highlights the relationship between identified risks and potential corrective
actions, including contingency plans. The contingency plan is triggered when the risks identified
during the risk management process are realized.

Impact of System Status on Cost, Schedule, and Benefits

The CDR project management team developed a risk management plan and a contingency plan
for the purpose of addressing development risks.

•   The risk management plan provides strategies for identifying, minimizing, and responding to
    risks. The plan identifies risk areas that are rated significant, moderate, or minimal based on
    the potential impact of the risk and the likelihood the risk will occur. The risk ratings are
    intended to be reevaluated monthly and changed as circumstances dictate. The risk
    management plan also includes the risk mitigation plan, which is used to address risks
    determined to be significant. The risk mitigation plan includes risk details, assignment of
    responsibilities, mitigation strategies, and contingency plans in the event the risks
    materialize.

•   The contingency plan identifies proposed actions that could be taken at key points in the
    system development life cycle if the system’s test results are less than satisfactory. In the
    early stages of system development, the proposed actions for unacceptable test results rely
    heavily on applying additional resources to correct defects and retest. For later development
    stages, other actions are considered such as partial or delayed implementation of the CDR
    system.

The CDR project management team has not determined the impact on cost, schedule, and
benefits of (1) several key change requests, (2) the delayed implementation of some system


                                                 6
functionalities, and (3) unexercised secondary options for functionalities and has not updated the
risk management plan and contingency plan accordingly. Although the contingency plan states
that the risk management team and the CDR Steering Committee should re-assess the plan in
light of ongoing project events and revise the plan as necessary, the plan has not been updated
since June 2004. The contingency plan is based on a September 30, 2004 CDR system delivery
date and relies heavily on adding contractor resources and extending the use of legacy systems in
the event that the CDR system is not delivered on time. Recently, during the April 21, 2005
Steering Committee conference call, the possibility of extending the current contract for Call
Report processing in the event the new system is not delivered on September 30, 2005 was
discussed. However, the contingency plan does not consider possible steps to protect the
FFIEC’s interest and investment in the event that the development effort is no longer viable or
the contract has to be terminated. The need for an updated contingency plan to reflect that
possibility is evidenced by the continued slippage in the CDR system development milestones,
several of which were illustrated earlier in this report.

Change Requests

The CCB had not evaluated or approved 23 of 32 change requests submitted through April 22,
2005. The FFIEC project manager, a member of the CCB, stated that the project team had not
aggressively pursued completing certain change orders because the priority was to have an
operational CDR system in place by October 1, 2005. As shown in Table 3, several of the
change requests relate to system functionalities that have a high impact on the CDR and could
result in a substantial cost increase in project development and maintenance over the life of the
contract.

Table 3: Change Requests With a High Impact on the CDR Project
    Change               Description                     Impact on the CDR System
  Request Not
 Yet Evaluated
 or Approved
No. 6             Update of the project        Cost and Schedule: The project management
                  management plan for          plan describes the work performed and the
                  consistency with current     schedule for each task and deliverable, project
                  contract requirements.       team organization and responsibilities of key
                                               personnel, risk management approach,
                                               communications plan, project status reporting,
                                               contract deliverables, and related reference
                                               material. Without an updated plan, resources
                                               may not be adequately allocated to ensure that
                                               project deliverables are completed on time and
                                               within budget.




                                                 7
    Change               Description                        Impact on the CDR System
  Request Not
 Yet Evaluated
 or Approved
No. 10           Enhancement to provide the       Cost: Without the enhancement, additional time
                 capability to import             will be required to enter external edits one at a
                 external edits that have         time.
                 been developed outside the
                 CDR system by the FFIEC
                 user community. (This
                 requirement is to be
                 developed after CDR
                 system delivery.)

No. 13           An ad hoc query capability.      Functionality, Schedule, and Cost: Without the
                                                  ad hoc query capability, the FFIEC members
                                                  may not be able to extract and analyze data as
                                                  part of their job functions.

No. 20           Functionality to provide the     Functionality and Schedule: Without this access,
                 FDIC access to the CDR           the FDIC and OCC cannot maintain up-to-date
                 meta-data.                       corresponding databases to support internal
                                                  information needs.

No. 21           Meta-data versioning to          Cost: Frequent changes are made to Call Report
                 provide the FFIEC the            instructions, thereby creating a continuing need
                 ability to tie a specific Call   for new versions of the meta-data. The cost of
                 Report to the report             additional meta-data versioning changes could be
                 instructions in effect at a      substantial over the contract’s 7-year system
                 given point in time.             maintenance period. This change request is
                                                  based on contract modification no. 9, which
                                                  includes revisions to address meta-data
                                                  versioning for sets of data series in two phases.
                                                  Versioning for both Phase 1 (pre-
                                                  implementation) and Phase 2 (post-
                                                  implementation) will be completed without cost
                                                  according to modification 9. Although, this
                                                  change request was approved on April 21, 2005,
                                                  the cost of meta-data versions for additional data
                                                  series was not addressed. The CDR project team
                                                  does anticipate there will be a future need for
                                                  more meta-data versions.

No. 22           Design flaw correction that      Functionality, Schedule, and Cost: If the design
                 is scheduled after the CDR       flaw is not corrected, a substantial amount of
                 system delivery date.            time would be required to process Call Reports.

The impact of these change requests should be determined prior to system implementation so
that the CDR project team can mitigate the risk of implementing a CDR system that does not
have the functionalities originally envisioned and is not cost-beneficial.

                                                    8
Delayed Functionalities

As part of the January 21, 2005 contract modification, the FFIEC agreed to accept the delivery of
the CDR system with some functionality that would be delayed until after September 30, 2005
(see Appendix III for a description of these functionalities). For example, for the Micro Data
Reference Manual (MDRM)2 will be implemented in two phases. During Phase I, the first
version of MDRM will be provided by September 30, 2005. An update to MDRM will be
provided in Phase II after the system delivery date. Another delayed functionality is system
extensibility – adding new capabilities. The requirements documentation for extensibility will be
completed by the project delivery date, and the actual work to develop this functionality will
occur after the delivery date. The delayed functionalities should not impact the contract cost or
current delivery schedule. However, if the functionalities are not implemented in a timely
manner, they could impact the anticipated benefits of improved efficiencies and extensibility
over the 7-year maintenance period of the contract.

Secondary Options for System Functionalities

Secondary options for system functionalities were provided for in the CDR system contract and
can be unilaterally exercised by the FFIEC within 6 months after delivery of the CDR system.
The options consist of system functionalities that are not directly related to processing Call
Reports but are critical to realizing the anticipated monetary benefits and functionality of the
CDR. The secondary options include the following functionalities:

    •   OLAP – Enables the Call Report analysts and CDR managers to generate their own
        reports through queries of the CDR database through a Web-browser interface.

    •   UBPR data – Provides financial data ratios and rankings for use by the Call Report
        agencies, financial institutions, and the public through a Web-site.

    •   Call Report facsimiles – Make available the non-confidential Call Report data through a
        public Web-site on a bank-by-bank basis.

    •   E-Commerce Facility – Allows the public to purchase Call Report data and would
        provide for credit card payments and user accounts. Proceeds from this facility would be
        transferred to the FFIEC Call Report agencies.

According to the FFIEC cost-benefit analysis used to approve the CDR funding, these
functionalities provide quicker industry access to non-confidential data; allow more user
flexibility for data analysis; and provide increased efficiencies. In particular, should the FFIEC
not exercise the UBPR option, the estimated cost savings reflected in the cost-benefit analysis
would decrease from $27 million to only $2.7 million. Exercising the secondary options should
not impact the contract cost or the current delivery schedule because the funding for the


2
 MDRM is the Federal Reserve System’s dictionary that contains definitions, non-financial information, and
annotations regarding historical and other information. The MDRM includes, for example, a data name for each
entry, a discussion of what to include and exclude in the data, and substitute instructions.

                                                       9
secondary options was included in the project budget approved by the FDIC’s Board of
Directors.

Schedule Slippages

The completion of some key functional tests has slipped since the contract was modified on
January 21, 2005. In addition, as of March 22, 2005, system defects that need to be addressed
before the CDR system can be delivered have not yet been resolved. The Unisys “trouble
report,” completed on March 22, 2005, identified 13 severe functionality defects (see
Appendix IV for a description of these defects) that required the test team to stop testing the
functions and 45 major defects in functions that substantially did not meet the system
requirements. As a result, there is a risk that the planned implementation date of September 30,
2005 will not be met. If the CDR system is not deployed by that date, implementation will be
delayed until March 31, 2006. The March 2006 implementation date is based on management’s
decision not to institute a new call reporting process when financial institutions are fulfilling
2005 year-end closing and reporting requirements.

The contingency plan identifies the following needed actions if implementation is delayed:

   •   the FFIEC Call Report agencies will need to provide additional staff resources to the
       CDR system development effort and maintain the current Call Report processing
       operations;

   •   the contract with Unisys may need to be modified;

   •   the contract with the current Call Report processing contractor will need to be extended;
       and

   •   the financial institutions and software vendors will need to be notified of the revised CDR
       system delivery schedule.

These actions, which are based on a 2004 system implementation schedule, may no longer be
viable. In addition, the difficulties in completing system functionality tests and addressing all
system requirements by the delivery date may be indicative of a need for further analysis. These
challenges could require much more time or cost to overcome than anticipated, and the project
may no longer be considered cost-beneficial. Accordingly, the revision of the contingency plan
based on the current status should include, among other alternatives, project termination if the
September 30, 2005 implementation cannot be met.

RECOMMENDATIONS

We recommend that the Director, DIR, require that the CDR project management team maintain
current and complete risk management and contingency plans. Specifically:

   (1) The CDR project management team should promptly determine the cost, schedule, and
       benefits impact of the change requests, delayed implementation of some functionalities,


                                               10
       and secondary options for functionalities. The change requests should be approved in
       accordance with the CDR change control process. These determinations should be made
       before the FFIEC accepts delivery of the CDR system.

   (2) The risk management and mitigation plan should be updated to address the CDR system
       post-delivery requirements and functionalities.

   (3) The contingency plan should be updated and approved by the CDR Steering Committee
       to reflect the revised project schedule, including the post-delivery requirements and
       secondary options. The plan should also address available alternatives, including project
       termination, if the September 30, 2005 CDR system delivery date cannot be met.


CORPORATION COMMENTS AND OIG EVALUATION

On June 9, 2005, DIR provided a written response to the draft report, which is presented in its
entirety in Appendix VI of this report. DIR concurred with the recommendations and described
the planned corrective actions to address them. Management’s response to each
recommendation is summarized below, along with our evaluation of the response.

DIR concurred with recommendation 1. DIR planned to first prioritize the change requests. The
CDR project team has asked the contractor to provide schedule and cost estimates for change
requests that are critical to complete before system implementation. In addition, the CDR project
manager established a Test Review Board (TRB) in April 2005 to review new change requests
and other issues arising from FFIEC testing of the CDR. The TRB completed an evaluation of
all outstanding change requests to validate their prioritization and is scheduled to notify the
contractor, by June 15, 2005, regarding which change requests will be required prior to
implementation.

After the contractor addresses all the change requests necessary for system implementation, the
contractor will also be directed to provide cost and schedule information for the change requests
that can be addressed after CDR implementation. DIR also noted that the contract does not
currently require the contractor to provide schedule and cost estimates on all outstanding change
requests prior to system implementation.

DIR indicated that the FDIC intends to hold the contractor responsible for any system
functionalities or change requests that are implemented after the CDR is delivered and are
determined to be within the scope of the contract at no additional cost. In cases where
completion of a change request is postponed until after system implementation, the Contracting
Officer will likely conditionally accept the CDR but withhold a portion of the payment on the
final deliverable if the change request is within the original contract scope. Any deferment of
functionality past initial implementation will be formalized in a contract modification. Change
requests that require FFIEC payments above the firm fixed price will be formalized in a contract
modification and will be subject to the approval processes both within the FDIC and at the
FFIEC. DIR also noted that the FFIEC has until March 31, 2006 to exercise any desired
secondary options. Prior to exercising secondary options, the FFIEC will consider all


                                               11
appropriate information, including contractor performance, changing priorities within the FFIEC,
and alternative approaches for achieving the results envisioned by the secondary options.

Management’s planned actions are responsive to the recommendation. The recommendation is
resolved but will remain undispositioned and open until we have determined that the agreed-to
corrective actions have been completed and is effective.

DIR concurred with recommendation 2. The FFIEC risk management plan identifies 23 risks to
the project and issues related to the functionalities that will be implemented after September 30,
2005. To fully monitor the issues and identify any associated risks, the FFIEC Risk Manager
will be briefed on the cost and schedule impacts of all change requests that are accepted. This
will be an ongoing process through September 15, 2005.

Management’s planned action is responsive to the recommendation. The recommendation is
resolved but will remain undispositioned and open until we have determined that agreed-to
corrective action has been completed and is effective.

DIR concurred with recommendation 3. The CDR project team will update the contingency plan
to reflect the revised project schedule and post-implementation functionality. The plan will also
address any available alternatives being considered if the risks rise to an unacceptable level. The
plan will be presented to the CDR Steering Committee for review and approval at its June 16,
2005 meeting.

Management’s planned action is responsive to the recommendation. The recommendation is
resolved but will remain undispositioned and open until we have determined that agreed-to
corrective action has been completed and is effective.




                                                12
                                                                                   APPENDIX I

                       OBJECTIVE, SCOPE, AND METHODOLOGY
Objective

The objective of the audit was to determine whether CDR project management was adequate.
Our objective included a review of the:

   •    system development life-cycle controls;
   •    cost, schedule, and performance management;
   •    procurement and contract oversight;
   •    test and evaluation; and
   •    system security, including the performance of certification and accreditation in
        compliance with the standards published by the National Institute of Standards and
        Technology.

Scope

At the completion of our field work, CDR project development had not progressed to the point at
which all system controls identified in our objectives were fully developed and implemented.
Specifically, test plans had not been completed, many key tests identified in the project plan had
not yet been performed, key aspects of the security testing had not been completed, and the
certification and accreditation process had not yet begun. Therefore, our work focused on
system development controls; cost, schedule, and performance management; and procurement
and contract oversight.

Methodology

We performed the following activities during our audit:

   •    Reviewed the overall project management approach for consistency with PMBOK®Guide
        and RUP® standards. This review included the: project management plan, Unisys and
        FFIEC risk management plans, and project plan schedule to determine if the plans were
        in use and effective.
   •    Reviewed the system development life-cycle approach to project development to
        determine whether the approach was consistent with development standards.
   •    Reviewed and evaluated the processes and controls for managing and tracking project
        cost, schedule, and performance to assess whether the FFIEC provided adequate
        oversight of the project.
   •    Interviewed key CDR project management staff to identify the causes of development
        delays and other performance issues and any action taken to address the schedule and
        performance issues.
   •    Reviewed the contract and modification documentation to determine if the contract
        requirements were met.
   •    Reviewed selected system test plans and observed testing to evaluate the overall testing
        approach.

                                               13
                                                                                    APPENDIX I

   •   Provided feedback to the CDR project team on the penetration test plan.
   •   Obtained and reviewed Unisys site visit reports prepared by the FFIEC, the General
       Services Administration, and the Small Business Administration. The reports identified
       that Unisys facilities had adequate security. However, because the CDR project was not
       fully developed or operational, the site reviews could not address project-specific security
       concerns.

Internal Controls

We performed an assessment of the internal controls, including the control environment, risk
assessment, control activities, information and communication, and monitoring related to the
CDR project management activities for the system development. Generally, the CDR project
management team established and implemented an adequate structure of management controls.
However, as discussed in the audit report, the risk management and contingency plans need to be
updated to reflect the risk associated with post-implementation functionalities and changes, and
the risk that the CDR development becomes unacceptable.

Federal Information Security Management Act (FISMA), Title III, Information Security, of
the E-Government Act of 2002, P. L. No. 107-347

This statute, codified at Titles 40 and 44 of the United States Code, provides a comprehensive
framework for ensuring the effectiveness of information resources that support federal operations
and assets. The statute also emphasizes the need to provide effective government-wide
management and oversight of the related information security risks. Portions of the Act apply to
the FDIC, and other portions address prudent business practices. The CDR project management
team has included FISMA-related concepts in its project management activities. Specifically,
the project management team has developed a security plan, assigned security responsibility, and
included plans for periodic review of the security controls and system authorization prior to
operations.

Reliance on Computer-based Data

We assessed the reliability of the information on project status maintained in the Microsoft
Project® application, and the information related to problem reporting and resolution tracked in
the ClearQuest® application to ensure that computer-processed data were valid and reliable when
those data were used during audit field work. We verified selected automated data to source
documentation and corroborated automated data through interviews with appropriate FDIC
personnel. We determined that the data were sufficiently reliable for the purposes of this audit.

Performance Measures

Implementation of the CDR by December 31, 2004 was included in the FDIC 2004 Annual
Performance Plan as an indicator and target for addressing the annual performance goal to



                                               14
                                                                                 APPENDIX I

maintain sufficient and reliable information on insured depository institutions. As discussed in
the audit report, the implementation date for the CDR has been revised until September 30, 2005.

Our audit covered the period from contract award in May 2003 through April 2005. We
performed our audit at the FDIC’s Washington, D.C., offices from October 2004 through
April 2005 in accordance with generally accepted government auditing standards.

Prior Audit Coverage

Prior to this audit, we issued the following reports related to the CDR.

   •   Audit Report No. 03-018 entitled, Review of FFIEC Call Report Modernization Cost
       Benefit Analysis, dated March 31, 2003. The report assessed whether the cost
       information included in the cost-benefit analysis was supported and the assumptions were
       reasonable.

   •   Evaluation Report No. 04-014 entitled, XBAT Contracting and Project Management,
       dated March 26, 2004. The report evaluated the contracting and development of the
       XBRL Business Analysis Tool (XBAT).




                                                15
                                                                                          APPENDIX II

                              CDR CHANGE CONTROL PROCESS




            Submitter                                            CCB                     SC/Task Force/CO
                               CCB Chair & PMs




           Submit CR                                            Review CR                 Review CR
                                Review CR



                                                 No                         Yes                          No
            Administrative
              Support            Approved?            Closed   Approved?                    Approved?
                                                                                                     Closed
                                                                       No                          Yes
            Log CR                    Yes
                                                                Closed
                                Determine                                                  Additional
                                Impact                                                     Cost?
                                                                                   No
                                                                                                   Yes
        Schedule CR
        Review Meeting                                Yes


                               Change to                                                FFIEC Task Force
                               Cost/Schedule                                            on Reports & CO
                                                                                        Approval?        No


         Review CR                          No
                                                                                           Yes           Closed


                              Assign Resources and
                                                               Issue Task                   Agencies’
                              Perform Work
                                                               Order                        Approval?
                                                                                  Yes
         Prepare                                                                                    No
         Decision
         Summary                  Closed
                                                                                            Closed


CR – Change Request.
CCB – Change Control Board.
PM – Project Manager.
SC – Steering Committee.
CO - Contracting Officer.




                                                        16
                                                                             APPENDIX III

            DELAYED FUNCTIONALITIES AND SECONDARY OPTIONS


Delayed Functionalities

   ¾ Enhancements to the meta-data management tool for importing edits. In the current
     design, edits developed outside the CDR system must be entered one at a time. Without
     this enhancement, additional time will be required to enter external edits.

   ¾ Ad hoc query capability. Extracts and analyzes any data in the system without
     restrictions.

   ¾ FDIC access to meta-data. The FDIC and OCC require this access in order to keep
     corresponding databases up to date.

   ¾ Meta-data versioning. Provides the FFIEC the ability to tie a meta-data version to
     different series of meta-data.

   ¾ Changes to data edit process. Corrects a flaw in the current CDR design that will
     require a substantial amount of work to process Call Reports.

   ¾ Extensibility. The ability to expand system capabilities to accommodate new users and
     additional requirements.

Secondary Options

   ¾ OLAP reporting. The OLAP tool is a category of database software that provides an
     interface so users can transform raw data according to user-defined functions. The
     benefit of OLAP is the capability to aggregate large amounts of diverse data most
     commonly used by a group of users for fast retrieval and analysis.

   ¾ UBPR data processing. UBPRs are an essential output for which the Call Report data is
     used. Each UBPR is a multi-page report that consists of financial data organized into
     income and balance sheet, asset quality, capital, and other information. UBPR data is
     displayed by individual banks, peer groups, and percentile rankings by peer group.

   ¾ Call Report facsimiles. Would allow the public to obtain non-confidential Call Report
     facsimiles through a browser-based interface.

   ¾ E-Commerce facility. Would allow the public to purchase Call Report data through an
     E-commerce facility.




                                            17
                                                                                APPENDIX IV

SEVERE DEFECTS IDENTIFIED IN MARCH 22, 2005 UNISYS TROUBLE REPORT


 ¾ Users unable to securely download up to six Call Reports in order to validate that the
   current Call Report is accurate as required.

 ¾ System is not properly evaluating formulas containing concepts that have non-negative
   decimal datatypes.

 ¾ Call analysts are not able to adequately retrieve and update reporting cycle status as
   required.

 ¾ System administrator was able to change report cycle status. This capability should not
   have been available to the administrator.

 ¾ System displays National Information Center (NIC) attributes at a given point in time
   rather than for specific reporting cycles.

 ¾ Inability to sort the report cycle list from the drop-down menu. This will make the
   function increasingly unusable.

 ¾ Screen space requires excessive use of the scroll bar.

 ¾ The meta-data management tool design does not support different derived concept
   versions for different data series or for different time periods within a data series.

 ¾ Panel of reporters (institutions required to file Call Reports) filter does not appear to
   allow the user to import script for a new filter for the panel of reporters for a new data
   series to support extensibility requirements.

 ¾ The NIC attributes need to be fully displayed.

 ¾ Incorrect order in meta-data presentation in one schedule.

 ¾ Value presentations for some items do not meet specifications.

 ¾ Reportability taxonomy extracts data from the long description field rather than the long
   caption field.




                                             18
                                                                                      APPENDIX V

                                 DETERMINATION OF RISK

The degree of risk associated with any adverse event is dependent on the likelihood that the
event will occur and the probable impact of the event. Expressing these two factors in easily
usable and understandable terms is essential.

The likelihood of an event occurring is the probability of the event. Precise and accurate
probability estimates are nearly impossible to determine. A rating of high, medium, or low is
assigned to the likelihood of occurrence based on the status and trend of the risk factor.

A designation of catastrophic, critical, marginal, or negligible is assigned in the impact rating.
The impact rating is based on the impact of the risk on the stated benefits of the full system
development.

Using the following table developed by the CDR project team and adapted by the OIG, we
determined the overall risk for the individual risk areas.



                                           Likelihood of Occurrence

       Impact                  High                   Medium                 Low

     Catastrophic              High                    High                Moderate

        Critical               High                   Moderate             Moderate

       Marginal              Moderate                 Moderate               Low

      Negligible               Low                      Low                  Low

 Source: CDR Project Team as Adapted by the OIG.




                                                 19
Appendix VI
     APPENDIX VI




21
     APPENDIX VI




22
                                                                                                                                                APPENDIX VII

                                                MANAGEMENT RESPONSE TO RECOMMENDATIONS

     This table presents the management response on the recommendations in our report and the status of the recommendations as of the
     date of report issuance.
                                                                                                                                                           Open
      Rec.                                                                     Expected            Monetary       Resolved:a     Dispositioned:b            or
     Number         Corrective Action: Taken or Planned/Status              Completion Date        Benefits       Yes or No        Yes or No              Closedc
                   DIR planned to first prioritize the system                March 31, 2006          No              Yes              No                   Open
           1       change requests based on the need to complete
                   critical changes before initial system
                   implementation. Other change requests will be
                   processed after the critical changes are made.
23




                   Secondary options will be evaluated before the
                   March 31, 2006 date for exercising the options.
                   The issues that relate to functionality                 September 15, 2005          No             Yes               No                  Open
           2       implemented after September 30, 2005 will be
                   reported in the risk management plan by
                   September 15, 2005.
                   The CDR project team will update the                         June 16, 2005          No             Yes               No                  Open
           3       contingency plan and present it to the CDR
                   Steering Committee at its June 16, 2005
                   meeting.
     a
         Resolved – (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
                    (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
                    (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long
                        as management provides an amount.
     b
       Dispositioned – The agreed-upon corrective action must be implemented, determined to be effective, and the actual amounts of monetary benefits achieved
     through implementation identified. The OIG is responsible for determining whether the documentation provided by management is adequate to disposition the
     recommendation.
     c
         Once the OIG dispositions the recommendation, it can then be closed.
